                         UNITED STATES OFFICE OF PERSONNEL MANAGEME NT 

                                                Washington. DC 1041 5 



  Office of the
Inspector General


       MEMORANDUM FOR JOHN BERRY
                                 Director                                              tj;:;
       FROM: 	                   PATRlCK E. McFARLAND             a~1~ £f!f:.
                                 Inspector General                W~
       SUBJECT: 	                Breach of Personally Identifiable Information in Retirement Services
                                 (Report No. 4A-Rl-OO-12-033)


       The purpose of this memorandwn is to communicate to you the conclusions resulting from our
       review of a release of personally identifiable information (PH) that occurred when a contractor
       for the Retirement Services (RS) program office mailed postcards related to the Federal
       Employees Health Benefits Program (FEHBP) open season enrollment to Federal government
       almuitants.

       Executive Summary

       Our review indicated that several missing or bypassed infonnation technology (IT) security
       controls resulted in postcards containing exposed PIl, including Social Security Numbers (SSN).
       to be printed and mailed through the U.S. Postal Service. In addition, several individuals across
       multiple U.S. Office of Personnel Management (OPM) organizations did not follow the
       appropriate procedures for reporting the breach to OPM ' s Situation Room.

       As a result, we recommend that the Office of the Chief Infonnation Officer (OCIO) strengthen
       its change management procedures and conduct agency-wide training and awareness campaigns
       related to incident response and reporting. We also recommend that RS implement a data
       reconciliation process with its contractor and consider providing free credit monitoring services
       to every individual whose SSN was printed and mailed.

       Background

       OPM contracts with Vangent, Inc. to manage the annual FEHBP open season enrollment process
       for Federal government annuitants. One of Vangent' s responsibilities is to mail postcards
       alerting annuitants who have suspended their FEHBP enrollment of the upcoming open season
       and their eligibility to re-enroll in the program. In Octobe-r 20J 1, Van gent unintentionally printed
       and mailed approximately 3,000 postcards that contained armuitant ' s SSNs on the cover.




        www.opm .goy 	                                                                           www.usa jobl.gov
John Berry                                                                                         2

Scope and Methodology

We conducted interviews with individuals from RS and OCIO and reviewed the information
security incident report from OPM’s situation room.

Our review was not conducted in accordance with Generally Accepted Government Auditing
Standards (GAGAS). The nature and scope of the work performed was consistent with that
expected of a GAGAS audit; however, because we consider this to be a review, the
documentation, reporting, and quality control standards are not as stringent.

Review Results

Our review indicated that several missing or bypassed IT security controls allowed the data
breach to occur and that several individuals across multiple OPM organizations did not follow
the appropriate procedures for reporting the breach to OPM’s situation room.

a) Failed security controls that allowed the breach to occur

  In July 2011, the OCIO sent test data to Vangent to test the creation of the database used to
  populate the FEHBP open season postcards to be mailed to Federal annuitants. However,
  Vangent informed the OCIO that there was an error with the test file. In an attempt to fix the
  problem, an OCIO programmer edited the code that was used to create the test data file. This
  edit was treated as an “emergency change” and the typical change control process, that
  requires several levels of approval and testing, was not followed.

  After the change was complete, the OCIO re-ran the data extract process and delivered a data
  file to Vangent that was to be used in the production database. Vangent detected that
  something was still wrong with this file, as many rows of data were rejected by Vangent’s
  database validity checks. It was also determined that this file inappropriately contained SSNs.
  As a result, the OCIO implemented a second emergency change in an attempt to fix the file.
  The extract was run a second time and a second production file was sent to Vangent. It would
  be determined later that the second production file was still incorrect (it contained far too
  many rows), but it no longer contained SSNs.

  Vangent proceeded to update its database with the second production file. However, it never
  “refreshed” the database to delete the first production file that contained SSNs. As a result,
  postcards containing clearly exposed SSNs were printed and mailed the week of October 24,
  2011. Due to the other errors in the data file, the postcards were mailed to government
  agencies that have collection accounts for annuitants, and not to the individual’s homes.
  Although the database contained too many rows of data, these errors were not detected
  because there is no reconciliation process to verify that the number of rows produced by RS
  matches the number processed by Vangent.

  Although a reconciliation process could have alerted Vangent that there were still errors in the
  database, the original problem was caused by weak change management controls in the OCIO.
John Berry                                                                                    3

  Since the code edits were treated as emergency changes, limited testing was done on the
  changes, and nobody other than the programmer approved the change. The programmer
  checked the code out of production, made edits, and then delivered it to the mainframe
  Production Control team to place back into production. Although there is certainly a need for
  an emergency change process in a programming environment, the process should still require
  at least one level of managerial approval so that the programmer cannot facilitate the entire
  process alone.

  RS estimated that approximately 3,000 postcards containing SSNs were mailed. The majority
  of the postcards were recovered from the government agencies to which they were mailed, but
  approximately 650 postcards were not recovered. Free credit monitoring services were
  offered to those individuals whose information was exposed on the non-recovered postcards,
  but nothing was offered to those individuals whose information was printed on postcards that
  were recovered. The mailed postcards were bundled in stacks of about 150 and the only
  exposed SSN was the postcard on top. Although only one out of every 150 postcards was
  easily visible, and most of the postcards were recovered, it is impossible to determine how
  many people had physical access to the trays as they were routed through the print vendor’s
  facility and the U.S. Postal Service.

  Recommendation 1
  We recommend that the OCIO improve its change management procedures so that emergency
  changes require management approval prior to being placed into production.

  Recommendation 2
  We recommend that RS develop a reconciliation process with Vangent to ensure that the data
  files passed between the organizations contain the appropriate quantity of data.

  Recommendation 3
  We recommend that RS reevaluate its decision to not provide credit monitoring services to
  individuals whose information was printed on postcards that were recovered.

b) Timely reporting of the security breach

  On Saturday, October 29, 2011, an RS staff member received a telephone call from an official
  at the Eagan, Minnesota post office distribution center to report a large volume of postcards
  from OPM containing SSNs. The individual that received the call immediately notified a
  branch chief in the OCIO and a group chief in RS. By the evening of October 30, an OCIO
  group chief and the Associate Director of RS had also been notified. By the morning of
  Monday, October 31, OPM’s Chief Information Officer was also aware of the situation.

  Although multiple people across several OPM program offices were aware of the breach, it
  was not reported to OPM’s Situation Room until Wednesday, November 2; four days after the
  incident was first detected.

  OPM’s Incident Response and Reporting Guide is an agency-wide policy that states “OPM
  employees and contractors must report any breach or potential breach of PII to the OPM
John Berry                                                                                    4

  Situation Room within 30 minutes of becoming aware of the risk – regardless of the time or
  day of the week.” Although several OCIO and RS employees reported the incident to their
  direct managers, every person that knew about the event had the responsibility to report it to
  the Situation Room. We believe that this indicates that OPM employees are not fully aware of
  the requirements outlined in the Incident Response and Reporting Guide

  Recommendation 4
  We recommend that the OCIO conduct improved agency-wide training and awareness
  campaigns related to incident response and reporting.


cc:   Elizabeth A. Montoya
      Chief of Staff

      Richard B. Lowe
      Director, Executive Secretariat and Ombudsman

      Matthew E. Perry
      Chief Information Officer

      Kenneth J. Zawodny, Jr.
      Associate Director, Retirement Services


      Director
      Internal Oversight & Compliance


      Deputy Director
      Internal Oversight & Compliance


      Chief, Policy and Internal Control
